OFFICE OF INSPECTOR GENERAL


WORLDWIDE AUDIT OF
USAID’S DEMOCRACY AND
GOVERNANCE ACTIVITIES
AUDIT REPORT NO. 9-000-09-005-P
March 30, 2009




WASHINGTON, DC
Office of Inspector General


March 30, 2009

MEMORANDUM

TO:            Office of Democracy and Governance Director, Dorothy Douglas Taft

FROM:          IG/A/PA, Director Steven H. Bernstein

SUBJECT:       Worldwide Audit of USAID’s Democracy and Governance Activities
               (Report No. 9-000-09-005-P)

This memorandum transmits the final report on the subject audit. In finalizing this report, we
considered your comments and have included them as appendix II.

Based on your comments, we concur that a management decision has been reached on the
report’s recommendation. Please coordinate final action on this recommendation with USAID’s
Performance and Compliance Division (M/CFO/APC).

I appreciate the cooperation and courtesy extended to my staff during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

           Some Programs Achieved
           Measurable Results .............................................................................................. 4

           USAID Should Improve Data Quality .................................................................. 10

           Unexpended Obligated Balances
           Should Be Reviewed ........................................................................................... 12

Evaluation of Management Comments ....................................................................... 13

Appendix I – Scope and Methodology ........................................................................ 14

Appendix II – Management Comments ....................................................................... 16

Appendix III – Audit Reports Issued............................................................................ 18
SUMMARY OF RESULTS
USAID has played a significant role in supporting democracy and governance programs
in developing countries. This report summarizes the results of the Office of Inspector
General audits conducted at seven selected missions: Angola, Democratic Republic of
Congo, Haiti, Jordan, Kyrgyzstan, Lebanon, and Morocco. (See appendix III for a list of
audit reports issued.) These seven missions obligated a total of approximately $162.4
million for democracy and governance activities in fiscal year (FY) 2007. Democracy
and governance activities reviewed by these audits focused primarily on elections and
political processes, civil society, and governance          The activities include election
planning and administration, political party development, citizen participation,
anticorruption initiatives and legislative strengthening (page 2).

The objective of these audits was to determine whether USAID’s democracy and
governance activities achieved their intended results, and what has been the impact
(page 3).

Four of the seven missions audited achieved their intended results for democracy and
governance activities in FY 2007. One mission partially achieved its intended results,
and two missions did not achieve their intended results. This report points out that the
results achieved at five of the seven missions were particularly noteworthy and have had
a positive impact. With respect to the remaining two missions audited, one achieved
limited impact and the other’s impact was mixed (page 4).

This report also addresses two issues. The first issue pertains to data quality assurance
(i.e., reported results were not verified and a data quality assessment at one mission
was not properly conducted). As a result, this audit report recommends that the Office of
Democracy and Governance issue clear and explicit guidance to all missions with
democracy and governance activities to ensure that data quality assessments are
conducted properly and reported results are properly verified (page 10).

The second issue pertains to unliquidated obligations totaling $827,339 identified at
three missions audited. Since mission-level audit reports have already made specific
recommendations to correct the identified problems, this audit does not make any
recommendations related to this issue (page 12).

USAID management concurred with the report’s recommendation and presented a plan
of action with target dates for implementing it. Accordingly, this report recognizes that a
management decision has been made.




                                                                                         1
BACKGROUND
USAID recognizes the importance of democracy and is the main implementer of U.S.
democracy and governance programs in developing countries. USAID’s mission is to
advance the effectiveness of global U.S. Government efforts to promote the transition to
and consolidation of democratic institutions, civic values, and good governance, and to
directly affect broader U.S. Government stabilization and development objectives.

Democracy and governance activities in these audits focused primarily on elections and
political processes, civil society, and governance.

Elections and political processes

According to the Democracy and Governance Office, a free and fair election reflecting
the will of the people is one of the most important events in a democratic society. The
Democracy and Governance Office assists emerging democracies with holding elections
and organizing political parties, as well as expanding citizens’ knowledge about electoral
and political processes. The Office provides comprehensive services to strengthen the
following activities:

   •   Election planning and administration
   •   Political party development and political finance
   •   Domestic/international monitoring
   •   Voter education
   •   Women’s and marginalized groups’ political participation

Civil society

According to the Democracy and Governance Office, a vibrant and politically active civil
society is a crucial element of all democratic systems of good governance. It is through
the advocacy efforts of civil society that individuals have a voice in formulating public
policy, enhancing citizen oversight of public institutions, and improving public dialog.
The Democracy and Governance Office works with many civil society organizations,
including media, trade unions, business associations, faith-based organizations, and
educational institutions. The Office’s key strategic priorities aim to increase, improve,
and strengthen the following aspects of civil society:

   •   Citizen participation in the policy process and oversight of public institutions
   •   Institutional and financial viability of civil society organizations
   •   Free flow of information
   •   Democratic political culture

Governance

USAID helps young democracies reform government structures and processes to make
them more transparent, accountable, and participatory at all levels. The Agency’s goal
is to encourage new governments to see themselves as being responsible “to” rather
than “for” the people. The Democracy and Governance Office focuses its good
governance support on the following activities:


                                                                                          2
   •   Anticorruption initiatives
   •   Public policy development and implementation
   •   Decentralization/local capacity building
   •   Legislative strengthening
   •   Security sector reform

This audit covered USAID missions in Angola, Democratic Republic of Congo, Haiti
Jordan, Kyrgyzstan, Lebanon, and Morocco. These seven missions obligated a total of
approximately $162.4 million for democracy and governance activities in fiscal year
2007.



AUDIT OBJECTIVE
As part of the Office of Inspector General’s annual audit plan for fiscal year 2008, the
Performance Audits Division directed this audit to answer the following question:

   •   Are USAID’s democracy and governance activities achieving their intended
       results, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      3
AUDIT FINDINGS
The audits judgmentally concluded that four of the seven missions audited achieved
their intended results for democracy and governance activities in fiscal year (FY) 2007.
One mission partially achieved its intended results, and two missions did not achieve
their intended results. Specifically:

   • USAID/Angola’s, USAID/Jordan’s, USAID/Kyrgyzstan’s and USAID/Morocco’s,
     democracy and governance activities achieved intended results.

   • USAID/Lebanon’s democracy and governance activities partially achieved
     intended results. USAID/Lebanon achieved 17 of the 27 indicators specified in
     the mission’s operational and performance management plan. According to the
     mission, some targets were not achieved because of (1) the war in 2006 and its
     aftermath, (2) the absence of a country president and functional parliament, and
     (3) the political situation in the country.

   • USAID/Democratic Republic of Congo’s and USAID/Haiti’s democracy and
     governance activities did not achieve intended results. USAID/Democratic
     Republic of Congo met or exceeded only 6 of 10 planned results. USAID/Haiti
     met or exceeded 8 planned results and did not meet 16 planned results of the 24
     planned democracy and governance results in its FY 2007 operational and
     performance monitoring plan.

The audits concluded that some activities’ achievements measurably resulted in an
overall positive impact, the activity impact was limited at one mission, and the impact
was mixed at another mission.

In addition, this audit identified opportunities to improve program management by
strengthening USAID’s democracy and governance activities related to (1) data quality
of reported results and (2) unexpended obligations. The following section discusses
some of the accomplishments at the missions audited, followed by two sections that
discuss opportunities for improvement.


Some Programs Achieved
Measureable Results
Overall, the missions audited reported measureable achievements despite the
challenging operating environments in some of these countries.

USAID/Angola had several significant projects, including the following:

   •   Good governance: The mission’s program trained executive branch
       personnel and provided support to executive office operations.
       Additionally, individuals received training in management skills and fiscal
       management to strengthen and decentralize local government.



                                                                                      4
   •   Political competition and consensus-building: The mission’s program
       trained individuals in the various aspects of political party development
       and provided assistance to political parties and groups in effectively
       articulating their platforms and policy agendas. The program also trained
       election observers and election officials and provided voter education to
       the general public.

   •   Civil society:  The program assisted civil society organizations in
       strengthening their internal organizational capacity and supported
       advocacy campaigns of these organizations.

USAID/Democratic Republic of Congo had several significant projects, including the
following:

   •   Elections and political processes: After intense presidential and national
       assembly elections in FY 2006, USAID continued to support the election
       process in FY 2007. The election process included presidential runoff,
       provincial assembly, traditional chief, gubernatorial, and senatorial
       elections. USAID-supported activities included voter education, political
       party poll-watcher training, development of provincial-level consultative
       groups, and development of quick reference materials to clarify election
       dispute procedures for increased transparency and participation.

   •   Local government and decentralization: In FY 2007, provincial deputies
       and governors were elected for the first time in 40 years. However, the
       newly elected local government leaders lacked the basic tools to function.
       USAID provided logistical support as well as training for the local
       governments. USAID also cosponsored a National Decentralization
       Forum to counter a controversial law introduced by the Minister of Interior.
       In addition, USAID supported Democracy Support Centers in the
       provinces to link civil society with the newly elected local officials.

   •   Civil society: USAID civil society assistance in 2007 focused on voter
       education for elections, civic education on post-elections institutions,
       awareness raising on key governance issues, and advocacy for reforms.
       USAID increasingly focused on networks, bringing together multiple
       groups for programs on civic education, human rights, and anticorruption.
       The centerpiece of these programs was the presence of regional
       democracy resource centers in Kinshasa, Lubumbashi, Mbuji-Mayi,
       Goma, and Kikwit, which provided information services, training, and
       meeting space to local political parties and civil society members.




                                                                                      5
                                                        Photograph of “Search for
                                                        Common         Ground”      radio
                                                        program production studio in
                                                        Kinshasa, Democratic Republic
                                                        of Congo. The studio produces
                                                        programs with themes of
                                                        repatriation and transition to
                                                        permanent       governance    for
                                                        rebroadcast by partner radio
                                                        stations in all provinces around
                                                        the country. Photo taken by
                                                        OIG auditor on April 18, 2008.

USAID/Haiti had several significant projects, including the following:

   •   Legislative function and processes: USAID organized and funded 10
       public forums outside of Port-au-Prince in which national legislators
       interacted with the citizens they represent. The interaction helped to build
       a relationship between national representatives and their constituents as
       representatives learned what their constituents were most concerned
       about. The constituents were also able to understand what the national
       legislators could and could not do in accordance with the constitution.

   •   Elections and political processes: After 2 years of an interim government,
       USAID/Haiti supported successful presidential and parliamentary
       elections in 2006 by providing election observers and funding for
       registration and ballot boxes. This helped USAID/Haiti meet its target of
       having these elected officials take office.

USAID/Jordan’s democracy and governance activities had mixed impact. For example,
within the legislative strengthening program, although the mission met its targets for
training national legislators and their staff members, Jordan’s parliamentary elections in
November 2007 resulted in a turnover of approximately 70 percent of legislators in the
House of Representatives.

In addition, the legislative strengthening program procured and installed an electronic
voting system for the Parliament at a cost of $665,000. Installation of the electronic
voting system was completed in July 2007. However, the Parliament used the system
only sporadically at first. The system requires parliamentarians to have their cards with
them for voting, and parliamentary leadership had yet to establish precedents for the
system’s use.

The Democracy and Governance Program completed the important tasks of establishing
a parliamentary budget office and a legislative research office to assist with budget


                                                                                            6
oversight, research, library services, and training for parliamentary staff and members of
Parliament. The program also trained elected municipal officials to define community
needs, to build issues-based campaigns, and to transfer those skills to political
campaigns.

In addition, media programs spread election awareness through public education and a
video demonstrating the administration of an election that was shown several times a
day on television in the weeks preceding the November 2007 parliamentary election.
For example, under a subcontract, the Democracy and Governance Program launched
the “oo3a” brand as part of a media campaign to encourage voting. Two successful
products of the media campaign were (1) a rap song targeting first-time voters, played
by most commercial radio stations and (2) a code of ethics adopted by 110 candidates in
various regions of Jordan and also used by some candidates as a campaign tool.
According to the contractor, this campaign reached more than 2 million Jordanians.
According to an editorial in a Jordanian newspaper, oo3a was the most positive initiative
in the 2007 elections “because of its message against vote buying and for the
improvement of the elections process.”

USAID/Lebanon had several significant projects, including the following:

   •   Under USAID/Lebanon’s Transparency and Accountability Grants
       program to support civil society organizations, America-Mideast
       Educational and Training Services provided nearly $4 million in grants to
       support 131 local recipients and civic initiatives. The program’s other
       accomplishments included (1) producing a book and a Web site dealing
       with the legal rights of Muslim women in religious courts on prenuptial
       agreements and (2) the Chamber of Commerce, Industry, and Agriculture
       of Beirut and Mount Lebanon launching the first issue of the Business
       Confidence Index.

   •   The Christian Association for the Blind received a $24,760 grant to create
       a guide on human rights in Braille and distribute 800 copies to blind
       residents in Lebanon to help them understand their rights in society.

   •   SADER Publishers received a $92,275 grant to develop, in coordination
       with the Ministry of Justice, a compendium of all international, multilateral,
       and bilateral treaties approved by the Lebanese Parliament and ratified
       for use by judges and courts nationwide. This will lead to stronger
       application of the rule of law, thereby benefiting citizens, professionals,
       and investors. All judges were to receive copies of the books; however,
       the political situation has delayed distribution and the books were being
       held in a warehouse.

   •   Under USAID/Lebanon’s municipal governance assistance program, the
       State University of New York provided management work processes and
       systems, and training to improve the quality of governance. In one case,
       the implementing partner developed a municipal accounting system that
       standardized accounting procedures and made the financial work of local
       government more transparent. This system also enabled municipalities to




                                                                                        7
       electronically manage the business, accounting, and reporting processes
       related to fixed assets and inventories.

USAID/Kyrgyzstan had a limited impact in promoting democratic development, as
reflected by the lack of progress in a number of widely used industry and USAID indices.
The limited impact was attributed to several factors, including declining funding levels,
the large number of implementing mechanisms in the mission’s portfolio, and the
country’s difficult political environment. However, in most cases, the democracy and
governance activities selected for review were found to have been successfully
completed, with a number of the activities producing positive results as follows:

   •   Parliament: Under the Parliamentary Strengthening Program (designed
       to help Kyrgyzstan’s Parliament operate in a more transparent manner),
       the implementing partner completed one activity, which reported on the
       Parliament’s legal authorities to oversee the national government and
       provided recommendations on how the Parliament could more effectively
       exercise its authority to review and draft legislation.

   •   Local governance: Under the Decentralization and Local Government
       Program, USAID funds were used to support the Kyrgyz Government in
       implementing its decentralization reforms through activities designed to
       strengthen local governments’ capacity to meet community needs and
       promote community participation at the local level. Among other things,
       these activities emphasized the development of checks and balances
       within local administrations and between the administrations and elected
       councils. One activity, for example, offered training to develop local
       government capacity in asset management and technical advice on topics
       such as how to manage and register municipal property. Thanks in part
       to this activity, community members began to see the benefits associated
       with the effective management of municipal land. According to one
       entrepreneur, “Today any person may lease or buy land from the mayor’s
       office and start his or her own business—our lives have improved as a
       result.”

   •   Election reform efforts: To help the Kyrgyz Government reform its
       electoral framework, USAID funds were used to publish an Ink Manual
       that explained the use of inking, including its costs and administration, in
       ensuring that votes are cast only once. Both the manual and the required
       inking equipment were provided to the Government for use in initiating its
       own inking program.

USAID/Morocco had several significant projects, including the following:

   •   For the first time in Morocco, three cities (Casablanca, Marrakech, and
       Salé) were rated by an internationally recognized credit-rating agency to
       improve their access to capital financing.

   •   In four rural communes in the province of Errachidia, USAID enabled the
       participation of nearly 7,000 people (more than half of whom were women
       or children) in determining local priorities within the framework of the


                                                                                       8
    national initiative for human development. USAID also supported the
    creation of a human development center in one of these communes, as
    well as income-generating activities for women and low-income
    populations.




                                                       Photo     of    a   woman
                                                       processing palm dates into
                                                       jam,      using     USAID
                                                       equipment, to generate
                                                       income at a facility in
                                                       Errachidia,       Morocco.
                                                       Taken by an Office of
                                                       Inspector General auditor.



•   USAID established a multipurpose multimedia hall that provided about
    500 members of Parliament and 200 staff with a facility to train and
    communicate with constituents. The facility also provided access to a
    parliamentary database; a bill tracking system; and other global resources
    for   legislative   research,     continuing  education,     media,    and
    interparliamentary dialog.




                                                    Photograph     of   the   new
                                                    multipurpose multimedia hall,
                                                    in Rabat, Morocco. Taken by
                                                    an Office of Inspector General
                                                    auditor on October 25, 2007




                                                                                     9
USAID Should Improve
Data Quality

According to Agency policy, measuring performance effectively means that missions
should ensure that quality data are collected and available to make decisions. However,
six of the seven missions audited reported results that had not been verified in
accordance with Agency directives. Also, a data quality assessment was not conducted
at one mission, and was not properly conducted at another mission. According to the
missions, the causes for these data quality weaknesses included (1) other competing
priorities for the mission, (2) lack of training and weak internal control, and (3) reliance
on implementing partners’ reported results. Relying on unverified data elevates the risk
that USAID will make inappropriate decisions based on reports that understate or
overstate results.

According to Agency policy, measuring performance effectively means that missions
should ensure that quality data are collected and available to make management
decisions. According to Automated Directives System (ADS) 203.3.5.1, data reliability is
a key dimension of data quality. Only by using reliable data collected over time can
program managers evaluate program effectiveness and determine its direction and
relative efficiency. Also, according to ADS 203.3.5.2, data quality assessments should
be used to ensure that the operating unit is aware of the strengths and weaknesses of
the data and the extent to which the data integrity can be trusted to influence
management decisions.

The reported results of six of the seven missions audited had issues related to data
quality.

   •   At USAID/Angola, sample tests identified data quality problems for four
       indicators. The problems included (1) results that may not have been
       attributable to the USAID-funded program, (2) lack of supporting
       documentation for results, and (3) unreconciled differences between
       implementing partners’ records and those of service providers. The
       cause was a lack of training and weak internal control. Furthermore, the
       reliability of data was not adequately tested in two data quality
       assessments conducted by the mission, and a recommendation from a
       data quality assessment to improve the validity of reported results was
       not implemented.

   •   At USAID/Democratic Republic of Congo, results reported in the
       operational plan were not verified and supporting documentation was not
       maintained. Of the 16 indicators included in the FY 2007 operational
       plan, complete documentation was maintained for 6, partial
       documentation was maintained for 4, and no supporting documentation
       was maintained for the remaining 6. According to mission staff, other
       priorities prevented them from verifying results; hence the mission relied
       on partners’ quarterly reports.

   •   At USAID/Haiti, adequate records were not always kept to support
       reported results. Support was lacking for 6 of the 15 results reported in



                                                                                         10
       the 2007 operational plan. Proper documentation was not a high priority
       for partners, and cognizant technical officers did not periodically verify
       reported results.

   •   At USAID/Jordan, reported results were not accurate for three of five
       indicators because the numbers reported were transposed for one
       indicator, incorrectly entered for another, and counted for the wrong
       period for a third.

   •   At USAID/Lebanon, data quality assessments were not conducted
       because, according to mission officials, they did not know that they were
       required. The auditors concluded that the mission relied too heavily on
       the results reported by the implementing partners because mission
       officials did not conduct periodic testing and verification of the quality of
       the data.

   •   At USAID/Morocco, mission officials did not conduct periodic testing and
       verification of the quality of the data provided to them. The auditors’
       sample tests of data from implementing partners revealed errors in 6 of
       the 36 indicators reported. The auditors concluded that mission staff
       relied too heavily on the results reported by the implementing partners
       and the monitoring and evaluation contractor to report data and ensure
       data quality.

By relying on unverified data, USAID elevates the risk of making inappropriate decisions
based on reports that understate or overstate results. Therefore, a mission cannot
reliably determine if its program is achieving planned results, and the mission may report
inaccurate information to Washington management and other decision makers.

Because six of the seven missions audited had data quality issues, there is a risk that
other democracy and governance activities might also have data quality issues. Given
the importance of data quality assurance, all missions with democracy and governance
activities should properly conduct data quality assessments and to make verification of
reported results a high priority.        Therefore, this audit makes the following
recommendation.

       Recommendation No. 1: We recommend that the Director of the Office of
       Democracy and Governance issue clear and explicit guidance to all
       missions with democracy and governance activities in order to ensure
       that (a) data quality assessments are conducted in accordance with
       Agency guidance and (b) reported results are verified in accordance with
       Agency policy.




                                                                                       11
Unexpended Obligated Balances
Should Be Reviewed

According to Agency policy, unexpended obligated balances must be monitored.
However, the auditors identified a total of $827,339 in unliquidated obligations at three of
the seven missions audited. These unliquidated obligations were attributed to systems
problems, staffing constraints, and a lack of management oversight. As a result, unused
democracy and governance funds were not made available for other uses.

ADS 621.3.17 states that unexpended obligated balances must be monitored to ensure
that they are deobligated when no longer needed for the purposes for which they were
initially obligated. A careful review of unexpended obligated balances strengthens the
Agency’s internal control by deleting from the accounting system balances that are no
longer required for future payments. This helps to identify funds that can be
reprogrammed for current requirements.

The auditors identified a total of $827,339 in unliquidated obligations at three of the
seven missions audited. Specifically:

   •   USAID/Angola did not review unliquidated obligations.          The audit
       identified 20 democracy and governance award documents with
       unliquidated balances totaling $452,000. USAID/Angola staff stated that
       the balances were not deobligated primarily because of the absence of a
       bilateral agreement, which complicated the deobligation process in the
       accounting system. Since the mission did not operate under a bilateral
       agreement, additional procedures were necessary to deobligate the
       funds. The mission also stated that staffing constraints caused by vacant
       staff positions contributed to the problem.

   •   USAID/Jordan had not liquidated obligated balances totaling $333,339.
       According to mission officials, the mission did not liquidate the funds
       timely because of systems migration issues.

   •   USAID/Morocco had unliquidated obligated balances valued at
       approximately $42,000 owing to a lack of staff and management
       oversight.

As a result, democracy and governance funds were not made available for other uses.
However, since the three mission-level audit reports have already made specific
recommendations to correct the problems identified, this audit does not make a
recommendation related to this issue.




                                                                                         12
EVALUATION OF
MANAGEMENT COMMENTS
The Democracy and Governance Office concurred with the audit recommendation. The
Office will develop the guidance in collaboration with the USAID evaluation unit to
ensure that the guidance is accurate and fully addresses the audit findings. Second, the
Office plans to highlight the findings of this audit report and issue the guidance in the
monthly Democracy and Governance e-mail newsletter that is sent to all USAID
Democracy and Governance officers. Also, the Office will post the guidance on
the USAID/Democracy and Governance intranet site, an important resource for
Democracy and Governance officers. Finally, the Office will deliver the guidance as part
of its various training programs, which more than 100 Democracy and Governance
officers attend each year.

The Democracy and Governance Office reported that implementation of the
recommendation has already begun. The target date for completing the remaining
actions to close the recommendation is April 2009.

Based on this plan of action and the target date, we concur that a management decision
has been reached.




                                                                                      13
                                                                                       APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted audits at seven USAID overseas missions.
The audits were designed to answer the following question: Are USAID’s democracy
and governance activities achieving their intended results, and what has been the
impact?

This report summarizes the results of audit work conducted both at USAID offices in
Washington, DC, and at selected overseas missions. 1 The audit fieldwork was
conducted from August 16, 2007, through June 24, 2008, as follows:

       •   Washington, DC, and USAID/Morocco: August 16 through October 31, 2007

       •   Haiti: January 14 through January 31, 2008

       •   Kyrgyzstan: February 19 through March 19, 2008

       •   Lebanon: February 28 through June 24, 2008

       •   Angola: March 4 through March 27, 2008

       •   Jordan: March 30 through June 24, 2008

       •   Democratic Republic of Congo: March 31 through April 18, 2008

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

In planning and performing the audit, we assessed the effectiveness of USAID’s internal
controls related to the achievement of planned results. Specifically, we obtained an
understanding and evaluated controls related to the (1) annual report, (2) operational
plan, (3) performance management plan, (4) missions’ annual self-assessments of
management controls as required by the Federal Managers’ Financial Integrity Act,
(5) oversight by cognizant technical officers, (6) performance measures, and (7) data
quality assessments for the various USAID missions.

The audits covered the period from October 1, 2005, through September 30, 2007, but in
cases where related activities extended beyond that period we considered supporting
documentation from prior or subsequent periods. For the Democratic Republic of Congo,
the audit covered the period from October 1, 2006, through March 31, 2008.

1
    See appendix III for a list of audit reports issued during this worldwide audit.




                                                                                               14
                                                                          APPENDIX I




Methodology
To answer the audit objective, we reviewed relevant documentation related to
democracy and governance activities, including performance management plans,
operational plans, annual reports, cooperative agreements and contracts, implementing
partners’ quarterly and annual progress reports, and field trip reports to determine
progress toward outputs.      We interviewed USAID staff, implementing partners,
government officials, and beneficiaries.

We judgmentally selected key outputs for each selected partner and compared those
output percentages against the audit threshold criteria to determine if planned outputs
were achieved. We concluded that the mission achieved its results if it met or exceeded
at least 80 percent of performance indicators’ targets.




                                                                                    15
                                                                   APPENDIX II



MANAGEMENT COMMENTS
                                  March 4, 2009

Mr. Steven H. Bernstein
Office of the Inspector General
 Performance Audits Division
Ronald Reagan Building
Room 8.9.30

Dear Mr. Bernstein:

       Thank you for your memorandum regarding the Worldwide Audit of
USAID’s Democracy and Governance Activities (Report No. No. 9-000-0X-
00X-P). This letter is to formally confirm receipt of the audit and notify you
that the Bureau for Democracy, Conflict, and Humanitarian Assistance,
Office of Democracy and Governance (DCHA/DG) agrees with the audit
recommendation.

       To implement the recommendation, DCHA/DG has outlined the
following plan to issue clear and explicit guidance to all Missions with
democracy and governance activities in order to ensure that (a) data quality
assessments are conducted in accordance with Agency guidance, and (b)
reported results are verified in accordance with Agency policy. First, we
will develop the guidance in collaboration with the USAID evaluation unit
to ensure that it is accurate and fully addresses the Office of the Inspector
General’s (IG) findings. Second, we will highlight the findings of IG’s
report and issue the guidance in the monthly DG email newsletter that is sent
to all USAID DG officers, both in the field and in DC. Third, we will post
the guidance on the USAID/DG intranet site, an important resource for DG
officers. Finally, DCHA/DG will deliver the guidance as part of various
training programs we conduct that are attended by more than 100 DG
officers each year.

      The timeline for implementing the recommendation has already
begun. A draft of the clear and explicit guidance has been shared with the
USAID evaluation unit and will be finalized by the end of March. The
guidance will be issued via the DG email newsletter and posted on the DG
website no later than April 2009. The guidance will be incorporated into
various DG training courses as early as April 2009 and delivered multiple


                                                                             16
                                                                   APPENDIX II


times throughout 2009 and beyond. With this plan, we hope you can
successfully close the audit by the end of the calendar year.

       Please let me know if you have any questions about our plan for
implementing the audit recommendation, or if any other additional actions
are needed. Again, we thank you for the opportunity to have discussed the
audit findings, and appreciate the fact that we will be able to issue guidance
that should lead to improved performance management of USAID’s DG
programs.


                                       Sincerely,


                                       Dorothy Douglas Taft
                                       Director
                                       Office of Democracy and Governance
                                       Bureau for Democracy, Conflict, and
                                         Humanitarian Assistance

Enclosure:
             Draft Report on Audit of USAID’s Democracy and Governance
Activities




                                                                             17
                                                                  APPENDIX III


                      Audit Reports Issued
The following reports were issued as part of this democracy and governance
audit. The individual reports are available on the USAID/OIG Web site at
http://www.usaid.gov/oig/public/aud_usaid.htm.

Report No. 9-000-08-006-P, Audit of USAID/Morocco’s Democracy and Governance
Activities, March 28, 2008

Report No. 1-521-08-004-P, Audit of USAID/Haiti’s Democracy and Governance
Activities, April 25, 2008

Report No. 8-116-08-002-P, Audit of USAID/Kyrgyzstan’s Democracy and Governance
Activities, June 12, 2008

Report No. 4-654-08-006-P, Audit of USAID/Angola’s Democracy and Governance
Activities, September 30, 2008

Report No. 6-278-09-001-P, Audit of USAID/Jordan’s Democracy and Governance
Activities, October 28, 2008

Report No. 6-268-09-002-P, Audit of USAID/Lebanon’s Democracy and Governance
Activities, November 9, 2008

Report No. 7-660-09-001-P, Audit of USAID/Democratic Republic of Congo’s
Democracy and Governance Activities, November 13, 2008




                                                                            18
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
